     DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601
October 7, 2011

Report Number: A-05-11-00027

Chris Roberson
Director of Compliance and Community Programs
Indiana Hemophilia and Thrombosis Center, Inc.
8402 Harcourt Road, Suite 500
Indianapolis, IN 46260

Dear Mr. Roberson:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Payments for NovoSeven Coagulation
Factor VIIa to Indiana Hemophilia and Thrombosis Center, Inc. From January 1, 2008,
Through December 31, 2009. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Dave Markulin, Audit Manager, at (312) 353-1644 or through email at
David.Markulin@oig.hhs.gov. Please refer to report number A-05-11-00027 in all
correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Chris Roberson


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management and Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF MEDICARE PAYMENTS
 FOR NOVOSEVEN COAGULATION
   FACTOR VIIA TO INDIANA
 HEMOPHILIA AND THROMBOSIS
        CENTER, INC.
FROM JANUARY 1, 2008, THROUGH
      DECEMBER 31, 2009



                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-05-11-00027
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services, which administers the program,
contracts with Medicare contractors to process and pay Medicare Part B claims submitted by
providers for outpatient services. Medicare Part B helps cover medically-necessary services,
such as doctors’ services, outpatient care, and certain drugs.

NovoSeven (Coagulation Factor VIIa Recombinant) is a drug used to treat people suffering from
blood clotting disorders. Section 1861(s)(2)(I) of the Act provides Medicare coverage of blood
clotting factors, such as NovoSeven, for hemophilia patients competent enough to use such
factors to control bleeding without medical supervision.

Indiana Hemophilia and Thrombosis Center, Inc. (the Center) is the only federally recognized
comprehensive hemophilia treatment center in the state of Indiana. The Center, located in
Indianapolis, Indiana, provides healthcare and pharmacy services to patients with bleeding and
clotting disorders. A NovoSeven dispensation may consist of various dosages of the drug, which
are distributed to a patient for home use or administered at the Center. For calendar years (CY)
2008 and 2009, National Government Services, the Medicare Part B carrier for Indiana,
processed and paid the Center’s Medicare Part B claims.

We reviewed 171 NovoSeven dispensations made to six beneficiaries, with payments totaling
$46,783,961, that account for all Medicare Part B payments to the Center for NovoSeven
dispensed during CYs 2008 and 2009.

OBJECTIVE

Our objective was to determine whether the Medicare Part B payments made to the Center for
NovoSeven dispensed during CYs 2008 and 2009, were allowable.

SUMMARY OF FINDINGS

Of the 171 dispensations paid by Medicare Part B to the Center for NovoSeven dispensed during
CYs 2008 and 2009, payments for 169 were allowable. For the unallowable payments for one
dispensation, the Center claimed Medicare payments for double the amount of units actually
dispensed. For the unallowable payments for the second dispensation, the Center received
duplicate payments. As a result, the Center received net overpayments totaling $434,935, which
the Center had not refunded to Medicare by the beginning of our audit.

The overpayments occurred because the Center did not have policies and procedures in place to
ensure the correct number of units dispensed were claimed for payment and to ensure Medicare
payments for drug dispensations were appropriate, based on claimed amounts.



                                               i
RECOMMENDATIONS

We recommend that the Center:

   •   ensure the $434,935 of overpayments has been refunded to Medicare,

   •   establish policies and procedures to ensure that the correct number of units for drug
       dispensations are claimed, and

   •   establish policies and procedures to ensure that Medicare payments for drug
       dispensations are appropriate based on claimed amounts.

INDIANA HEMOPHILIA AND THROMBOSIS CENTER, INC. COMMENTS

In written comments on our draft report, the Center concurred with our recommendations. The
Center stated that it has ensured and verified that the overpayments were refunded to Medicare
and described additional policies and procedures that it implemented or planned to implement.
The Center’s written comments also included statements that were unrelated to our
recommendations; therefore, we did not verify those statements. The Center’s comments are
included in their entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              NovoSeven .....................................................................................................1
              Indiana Hemophilia and Thrombosis Center, Inc. .........................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................1
               Objective ........................................................................................................1
               Scope ..............................................................................................................1
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................2

          MEDICARE PART B BILLING REQUIREMENT .................................................3

          INCORRECT NUMBER OF UNITS CLAIMED.....................................................3

          DUPLICATE PAYMENTS .......................................................................................3

          RECOMMENDATIONS ...........................................................................................3

OTHER MATTER...............................................................................................................4

INDIANA HEMOPHILIA AND THROMBOSIS CENTER, INC. COMMENTS .......4

APPENDIX

          INDIANA HEMOPHILIA AND THROMBOSIS CENTER, INC. COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, contracts with Medicare contractors to process and pay Medicare Part B claims
submitted by providers for outpatient services. Medicare Part B helps cover medically-necessary
services, such as doctors’ services, outpatient care, and certain drugs.

NovoSeven

NovoSeven 1 (Coagulation Factor VIIa Recombinant) is a drug used to treat people suffering
from blood clotting disorders. Section 1861(s)(2)(I) of the Act provides Medicare coverage of
blood clotting factors, such as NovoSeven, for hemophilia patients competent enough to use such
factors to control bleeding without medical supervision. A NovoSeven dispensation may consist
of various dosages of the drug, which are distributed to a patient for home use or administered at
a hemophilia treatment center. During the audit period (calendar years (CY) 2008 and 2009),
Medicare required providers to bill one unit for every microgram of NovoSeven dispensed.

Indiana Hemophilia and Thrombosis Center, Inc.

Indiana Hemophilia and Thrombosis Center, Inc. (the Center) is the only federally recognized
comprehensive hemophilia treatment center in the state of Indiana. The Center, located in
Indianapolis, Indiana, provides healthcare and pharmacy services to patients with bleeding and
clotting disorders. For CYs 2008 and 2009, National Government Services, the Medicare Part B
carrier for Indiana, processed and paid the Center’s Medicare Part B claims.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicare Part B payments made to the Center for
NovoSeven dispensed during CYs 2008 and 2009, were allowable.

Scope

We reviewed 171 NovoSeven dispensations 2 made to six beneficiaries, with payments totaling
$46,783,961, that account for all Medicare Part B payments to the Center for NovoSeven
dispensed during CYs 2008 and 2009.



1
    NovoSeven® is a registered trademark of Novo Nordisk Health Care AG.
2
    A dispensation may result in multiple Medicare payments.

                                                         1
We limited our review of internal controls to gaining an understanding of the Center's policies
and procedures related to the purchasing, inventorying, handling, and dispensing of drugs, and
the preparation and submission of claims to Medicare.

We conducted our fieldwork from February through April 2011.

Methodology

To accomplish our objective, we:

      •    reviewed applicable Medicare laws, regulations, and guidance,

      •    identified Medicare paid claims to the Center for NovoSeven dispensations using CMS’s
           National Claims History file,

      •    interviewed the Center’s officials to gain an understanding of the Center’s policies and
           procedures,

      •    reviewed the Center’s purchasing and dispensation records for NovoSeven during CYs
           2008 and 2009,

      •    reviewed Medicare beneficiary medical records related to the Center’s Medicare claims
           for NovoSeven, and

      •    interviewed five Medicare beneficiaries who received NovoSeven for home use 3 and
           verified their receipt of NovoSeven from the Center.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATIONS

Of the 171 dispensations paid by Medicare Part B to the Center for NovoSeven dispensed during
CYs 2008 and 2009, payments for 169 were allowable. For the unallowable payments for one
dispensation, the Center claimed Medicare payments for double the amount of units actually
dispensed. For the unallowable payments for the second dispensation, the Center received
duplicate payments. As a result, the Center received net overpayments totaling $434,935, which
the Center had not refunded to Medicare by the beginning of our audit.

The overpayments occurred because the Center did not have policies and procedures in place to
ensure the correct number of units dispensed were claimed for payment and to ensure Medicare
payments for drug dispensations were appropriate, based on claimed amounts.
3
    For one beneficiary, NovoSeven was only administered at the Center.

                                                          2
MEDICARE PART B BILLING REQUIREMENT

Pursuant to Section 1833(e) of the Act (42 U.S.C. § 1395l (e)):

       No payment shall be made to any provider of services or other person under this
       part unless there has been furnished such information as may be necessary in
       order to determine the amounts due such provider or other person under this part
       for the period with respect to which the amounts are being paid or for any prior
       period.

INCORRECT NUMBER OF UNITS CLAIMED

During CY 2008, the Center claimed Medicare payment for an incorrect number of units for one
NovoSeven dispensation. The Center claimed payments for double the amount of units actually
dispensed. As a result, the Center received payments of $232,000, resulting in overpayments
totaling $116,000.

The overpayments occurred because the Center did not have policies and procedures in place to
ensure the correct number of units dispensed were claimed for payment. As a result of our audit,
the Center issued checks to refund the $116,000 of overpayments to Medicare.

DUPLICATE PAYMENTS

During CY 2008, the Center received duplicate Medicare payments for one dispensation,
resulting in overpayments totaling $318,935.

The overpayments were not identified because the Center did not have policies and procedures in
place to ensure Medicare payments for drug dispensations were appropriate based on claimed
amounts. As a result of our audit, the Center issued checks to refund the $318,935 of
overpayments to Medicare.

RECOMMENDATIONS

We recommend that the Center:

   •   ensure the $434,935 of overpayments has been refunded to Medicare,

   •   establish policies and procedures to ensure that the correct number of units for drug
       dispensations are claimed, and

   •   establish policies and procedures to ensure that Medicare payments for drug
       dispensations are appropriate based on claimed amounts.




                                                3
                                          OTHER MATTER

The Center states that patient’s home infusion records will become a part of the patient’s medical
record. The Center considers an infusion record to be a very important part in developing the
best possible care for a patient. The Center states that an infusion record is an accurate way to
document bleeding episodes and treatment. Having accurate information assists in the
development of the best treatment plan.

Our review of the Center’s Medicare beneficiary medical records disclosed that the medical
records did not consistently include the patient’s home infusion records. In interviews with the
Medicare beneficiaries, it was noted that in some instances they, in fact, had kept detailed
infusion records, during the audit period, and had provided those records to the Center.

INDIANA HEMOPHILIA AND THROMBOSIS CENTER, INC. COMMENTS

In written comments on our draft report, the Center concurred with our recommendations. The
Center stated that it has ensured and verified that the overpayments were refunded to Medicare
and described additional policies and procedures that it implemented or planned to implement.
The Center’s written comments also included statements that were unrelated to our
recommendations; therefore, we did not verify those statements. The Center’s comments are
included in their entirety as the Appendix.




                                                4
APPENDIX
                                                                                                                                Page lof4
            APPENDIX: INDIANA HEMOPHILIA AND THROMBOSIS CENTER, INC. COMMENTS

                                          August 31, 2011




                                          Stephen F. Slamar
    Indiana                               Acting Regional Inspector General for Audit Services
                                          Office of Audit Services, Region V
    Hemophilia &                          233 North Michigan A venue
                                          Suite 1360
    Thrombosis
                                          Chicago, IL 6060 I
    Center, Inc.
                                          Re: Office ofTnspector General (OIG) Review of Medicare Payments for
                                          NovoSeven Coagulation Factor VIla to Indiana Hemophilia and Thrombosis
                                          Center from January 1,2008, through December 31,2009 Report Number A-05­
                                          11-00027

                                          Dear Mr. Slamar:

                                          Thank you for the opportunity to review and comment on the OIG Draft Report
                                          entitled "Review of Medicare Payments for NovoSeven Coagulation Factor VIla
                                          to Indiana Hemophilia and Thrombosis Center from January 1, 2008, through
                                          December 3 1,2009" (A-05-11-00027).

                                          Background on the Indiana Hemophilia & Thrombosis Center, Inc.
                                         The Indiana Hemophilia & Thrombosis Center, lne. ("IHTC") is a 501(c)(3)
                                         non-profit, multidisciplinary treatment center and safety net provider dedicated
                                         to providing the highest quality comprehensive healthcare for persons with
                                         bleeding and clotting disorders.

                                         IHTC is Indiana's only federally recognized comprehensive hemophilia center
                                         and receives its designation by its receipt of grant funding from the Maternal &
                                         Child Health Bureau and the Centers for Disease Control and Prevention (CDC).

                                         Today there are approximately 140 Hemophilia Trcatment Ccnters (HTCs) in
                                         the United States that provide comprehensive services to over 20,000
                                         individuals with bleeding disorders. Services include, but are not limited to,
8-402 Harcourt Road                      expertise in coagulation disorders, individual treatment plans, preventative
                                         medicine, and access to a multidisciplinary team. These services maximize
Suite Soo
                                         both the effectiveness and efficiency of the HTC model of care. l
Indianapolis. Indiana 46260

Tel: 311·811·0000
                                         Hemophilia Background
                                         Hemophilia is a rare bleeding disorder characterized by a deficiency or absence
Toa Free: 1· 811·CLOTTER
                                         of clotting factor VIII (Hemophilia A, or FVIII deficiency) or clotting factor LX
Fax: 311·811·0010                        (Hemophilia B, or FIX deficiency). The most common type of hemophilia,
                                         FVIII deficiency, occurs in about one in 5,000 male births, while FIX deficiency
www.ihtc.org                             occurs in about one in 25,000 male births.

                                         I Soucie 1. Nuss R, Evatt B, et aI. Mortality among males with hemophilia: relations
                                         with source of medical care. Blood 2000; 96:437-42.


Indiana's Only Federall-t Recognized Comprehensive Hemophilia Center
                                                                                                      Page 2 of 4

The primary signs and symptoms of hemophilia are excessive/prolonged bleeding and easy bruising. In
general, musculoskeletal bleeding is the hallmark of hemophilia. TIle extent ofthese symptoms depends
on the type of hemophilia, the severity of the underlying deficiency, and the presence or absence of an
inhibitor.

Treatment of Hemophilia
There is currently no cure for hemophilia. However, treatment of the condition has advanced remarkably
in the past 30 years such that children with hemophilia that receive comprehensive treatment can now
look forward to a near-nomlallife expectancy. Hemophilia is managed effectively with infusion of
manufactured clotting factor concentrates to replace the factor protein that is missing from the blood .
This is called clotting factor replacement therapy. Clotting factor concentrates can be manufactured using
human plasma or through recombinant technology.

Clotting factor concentrates are typically provided to patients through HTC pharmacy programs or
through private homecare companies. As Indiana's federally recognized comprehensive treatment center,
IHTC operates a Public Health Service (PHS) Phamlacy Program, which allows IHTC to dispense
clotting factor concentrates at reduced prices .

The amount of factor and the frequency of administration depend on several variables such as the severity
and site ofthe bleeding, tlle size/weight of the patient, and the presence/absence of an inhibitor.
Treatment Witll clotting factor concentrate is expensive, accounting for up to 90% of tile cost of care in
hemophilia and is significantly higher for patients that are being treated witll an inhibitor 2 ,3

Inhibitor Development and Treatment
The development of an inhibitor is one of the most serious complications in the treatment of hemophilia.
An inhibitor is an antibody against tlle clotting factor concentratc used in replacement therapy. Antibody
formation is the body 's immune response toward foreign proteins. Because individuals with hemophilia
are deficient or lacking in a specific clotting factor protein, replacing tlle clotting factor can result in an
immune response in some individuals, as their bodies identify tile clotting factor concentrate as "non-self'
and thus destroy the infused clotting factor. Up to 30% of individuals with severe FVIII deficiency and
                                                                             4
1% to 6% of individuals Witll severe FIX deficiency develop inhibitors.

Development of an inhibitor represents a grave consequence of the disease and significantly alters patient
treatment, risk of development ofjoint disease, cost of therapy, and overall morbidity experienced. TIle
presence of inhibitors reduces or eliminates the efficacy of standard clotting factor replacement therapy.
For all patients with hemophilia and inhibitors, prompt treatment witll a bypassing agent such as
NovoSeven® (Coagulation Factor VTIa Recombinant) is imperative to achieve bleed control and
resolution, and prevention of sequela. TIlis is especially important in inhibitor patients lIsing bypassing
therapy as overall bleed control is less reliable with these therapies and requires prompt, individually
tailored and appropriate therapy.

Savings Resulting from IHTC's PHS Pharmacy Program
TIle Medicare payment allowance limit for NovoSeven® (J7189) during the OIG' s audit period ranged


2 Smith P. Teutsch S, Shaffer P, et aI. Episodic versus prophylactic infusions for hemophilia A: a cost-effectiveness

analysis. The Journal of Pediatrics 1996;129:424-31.
3 Globe D. Curtis R, Koerper M. Utilization of care in haemophilia: a resource-based method for cost analysis from

the Haemophilia Utilization Group Study (HUGS). Haemophilia 2004:10:63-70.
4 DiMichele D. Inhibitors in Hemophilia: A Primer. In: Treatment in Hemophilia: World Federation of Hemophilia
(WFH); 2004.                                                                                                      .

                                                                                                          Page 2 of 4
                                                                                              Page 3 of 4

from $1.173 to $l.308 per microgram. Because the Medicare beneficiaries whose claims where included
in this review chose to receive their medications from the IHTC's PHS Phannacy Program, IHTC was
able to save Medicare approximately $4 .5 million during the two-year audit period, by billing below the
allowable for NovoSeven®.

                                             *        *       *
OIG Recommendations

1. 	 Ensure the $434,935 of overpayments has been refunded to Medicare.

    Response: IHTC has ensured and verified that the inadvertent overpayments were refunded to
    Medicare and were processed by Indiana's Medicare Part B contractor.

2. 	 Establish policies and procedures to ensure that the correct l1lunber of units for dmg dispensations are
     claimed.

    Response: The IHTC phamlacy program has several policies and procedures regarding the
    dispensation and billing of pharmacy claims. Medicare claims for NovoSeven® represent a unique
    challenge. The Indiana Medicare Part B Contractor is National Govcmment Services ("NGS").
    NGS's claims adjudications software restricts the "units of service" field, and the total claim anlount
    for each claim. Additionally, the units of service field on the required CMS 1500 claim fonn is
    limited to three digits (i.e. 999). Therefore, all claims submitted to NGS for clotting factor claims in
    excess of 999 units of service must be specially processed. The NGS system identifies claims
    submitted in excess of 999 units and modifies the claim submission to be one unit of service and
    forwards the claim to be manually priced for payment. The NGS system also has a per claim limit of
    $100,000 . Therefore, NGS has instmcted IHTC that all claims resulting in a billed charge in excess of
    $100,000 must be manually split into separate claims reflecting the aggregate dispensation. In order
    to prevent the NGS system from denying a claim as a duplicate, NGS has instmcted the IHTC to
    submit a varying total billed charge and meg/unit of service for each claim . In previous
    correspondence with NGS regarding this matter, we were informed that the number of clotting factor
    claims submitted to them is small in relation to the total number of claims processed and would
    require significant restmcturing. NGS has also stated that the limitations with the CMS 1500 claim
    fonn are beyond their control. Therefore, although IHTC's phannacy dispensation system is capable
    of submitting claims electronically to payers, NGS requires IHTC to manually modify claims to meet
    NGS system requirements .

    Pursuant to the OIG's recommendation, IHTC has implemented additional policies and procedures to
    ensure that manually submitted claims to Medicare are verified by two individuals at IHTC for
    accuracy prior to submission. Additionally, IHTC contracted with its pharmacy billing and
    dispensation system provider in March 2011 to create a reporting mechanism allowing for
    reconciliation ofthe units dispensed by the phamlacy against the units of service billed to payers. We
    anticipate this reporting mechanism to be complete in September 2011, allowing us to electronically
    verify all dispensations.

3. 	 Establish policies and procedures to ensure that Medicare payments for dmg dispensations are
     appropriate based on claimed amounts.

    Response: IHTC has established additional policies ,Uld procedures to ensure that payments for drug
    dispensation are appropriate based on claimed amounts. Reconciliations of the entire claim are
    performed when an explanation of benefits is received from a payer. When a claim (manual or

                                                                                                  Page 3 of4
                                                                                              Page 4 of4

    system generated) is created, the original amount billed is recorded within the electronic billing
    system and future transactions are reconciled against the original amount whether they are payment in
    full, partial payments, overpayments, contractual adjustments or notification of patient responsibility.

Other Matter

The OIG also noted that the medical records did not consistently include the patients ' home infusion
records documenting bleeding episodes and trcatment.

Response: While not required by most insurance companies or all HTCs, IHTC has consistently made
efforts to have patients complete home infusion records. IHTC currently has two options available to
complete these records; ATIINadvoy or a paper infusion calendar. ATIINadvoy is a secure electronic
treatment record system that enables patients to log bleeding events and treatments online through a
computer. IHTC also developed and offers an infusion calendar. This paper calendar is specifically
designed by the IHTC team to document bleeding episodes and infusions in an easy-to-document and
read format. Despite offering multiple methods for log completion and encouraging patients to complete
these, the number of patients maintaining an accurate, up-to-date bleeding and infusion log remains less
than optimal - consistent with that reported at HTCs across the country . When patients bring treatment
logs to clinic, they are reviewed and discussed with the patient/family and, if possible and practical, the
records are copied il1to the patients Electronic Medical Record (EMR). Regardless of whether patients
complete treatment logs, all IHTC patients utilizing clotting factor concentrate are clinically evaluated
and followed by IHTC's physicians and medical statIto ensurc optimal medication utilization. If
treatment logs are incomplete or documented in a format which make them difficult to scan into an EMR,
physicians and care providers document relevant trends and/or treatment decisions in the patient's chart.
IHTC is committed to continue efforts to obtain, review and record this important documentation.

We appreciatc thc cooperation of your staff and the professional manner in which this audit was
conducted. If you have any hlrther questions, please feel free to contact me at (317) 871-0011 .


Sincerely,

IN ancy F. Hoard/

Nancy F. Hoard
Executive Director

cc: Nicki Stauffacher




                                                                                                Page 40f4
